OSfz2-(zi
M O

No.

IN THE

Supreme Court of tlje WLnittb Mutzi
Jane Doe
Petitioner,
v.
James T. DeWees, et al
Respondents.
On Petition for a Writ of Certiorari
to the Maryland Court of Appeals
PETITION FOR A WRIT OF CERTIORARI
Jane Doe
Petitioner pro se
c/o LWRN
5 South Center Street, #1100
Westminster, MD 21157
410.857.5444
lwrn@mail.com

QUESTION PRESENTED
The fundamental right of all persons to seek
remedy for injury via the courts has been variously
grounded in Article IV’s privileges and immunities
clause, the First Amendment, and the Fourteenth
Amendment. Actions seeking remedy are necessarily
filed in the names of the real parties in interest. It has
long been established that a person has the right to sue in
the name which he has chosen for himself and the name
by which he known and identified by other humans in
society; this is a common law right throughout the
States.
Question:
Do homeless people known by their common-law
names and without home addresses have a constitutional
right to sue in state courts for remedy of injuries?

1

LIST OF PARTIES
Jane Doe is the petitioner herein and was
plaintiff and plaintiff-appellant, respectively, in the
Maryland Circuit Court for Carroll County, the Court
of Special Appeals, and the Court of Appeals.
Defendants below and Respondents herein are
government employees and government contractors:
James DeWees, Monisa Logan, Michele Miner, Ben
Craft, Daren Metzler, Douglas Kriete, Michael L.
McCrea, Michael E. Boyd, John Bowen III, Mary C.
CONMED
Reece,
JoAnn
Ellinghaus-Jones,
Healthcare Management, Inc., George Hardinger,
Joyce Schaum, Amanda Blizzard, Kristy Cerny,
Britnie Boschert, Joshua Boschert, Michael Green,
Larry Naill, Jr., Kenneth Chesgreen, Tracy
Lillehaug, Dennis Harmon, Nadia Medevich, Paula
Hyde, Cheyenne Lee, Judy Warner, Mr. Jersild, Tony
J. Mummert, Teresa L. Bosley, Robin L. Shorb,
Garth Mays, James Kershesky, Chester L. Arnott,
Craig Koerner, Michael Andrews, C.S. Wendell
Highsmith, Jr., Douglas McGreevy, Jr., Mary K.
Smith, Kathryn Glenn, C. Haines, B. Shirey, Brian
DeLeonardo, Adam G. Wells, Five unidentified
District Court Clerks, Two unidentified Sheriffs
Office employees, Eight unidentified correctional
officers,
and
One
unidentified
contracted
psychiatrist.

CORPORATE DISCLOSURE STATEMENT
Petitioner is an individual.

11

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES

11

CORPORATE DISCLOSURE STATEMENT

11

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

v

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

INTRODUCTION

1

RELEVANT CONSTITUTIONAL PROVISIONS
AND COURT RULES............................................

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

19

APPENDIX A:
Maryland Court of Special Appeals Opinion
(May 6, 2020)..................................................

in

1-6

APPENDIX B:
Maryland Court of Appeals Denial of Petition for
Writ of Certiorari to Court of Special Appeals
1-2
(October 23, 2020)

IV

TABLE OF AUTHORITIES
Cases:
Bill Johnson's Restaurants, Inc. v. NLRB,
461 U.S. 731 (1983) .......................................

17

Boddie v. Connecticut,
401 U.S. 371 (1971)....

17

California Motor Transport Co. v. Trucking
Unlimited, 404 U.S. 508 (1972).....................

17

Chambers v. Baltimore & Ohio R. Co.
207 U.S. 142 (1907)..............................

16

Corfield v. Coryell,
6 F.Cas. 546 (E.D. Pa 1823)

16

Leone v. Comm’r, Ind. Bureau of Motor Vehicles,
933 N.E. 2d 1244 (Ind. 2010)...................................

13

Lozano v. City of Hazelton,
496 F. Supp. 2d 477 (M.D. Pa 2007)

11

Pennsylvania v. Finley,
481 U.S. 551 (1987)......

17

Romans v. State,
16.A.2d 642 (1940)

12

Schofield v. Jennings,
68 Ind. 232 (1879).....

12

v

Southdown Liquors, Inc. v. Hayes,
323 Md. 4 (1991)..............................

11

Stuart v. Bd. of Supervisors of Elections,
295 A.2d 223 (Md. 1972)............................

12

Torbitt v. State,
650 A.2d 311 (Md. Ct. Spec. App. 1994)

12

Wolff v. McDonnell.
418 U.S. 539 (1974)

17

Constititional Provisions:
Article IV, Sec. 2

2, 7, 16
2, 7, 17, 18

First Amendment
Fourteenth Amendment

passim

Md. Decl. of Rights Art. 5

2, 11, 14

Md. Decl. of Rights Art. 19

3, 7, 15

Md. Decl. of Rights Art. 23

3, 5, 19

Rules:
Maryland Rule 2-201

3, 6, 8, 11

Maryland Rule 1-311

3, 14, 15

vi

Other authorities:
29 Cyclopedia of Law and Procedure 261, 271.
(William Mack ed., 1908)..................................... 12-13
6A Wright and Miller, FEDERAL PRACTICE
AND PROCEDURE § 1543.................................

11

Report of Attorney General of California,
No. 00-205, June 9, 2000.............................

13

Vll

PETITION FOR A WRIT OF CERTIORARI
Petitioner Jane Doe (“Doe”) respectfully
petitions for a writ of certiorari to review a judgment
of the Court of Special Appeals of Maryland, where
certiorari was denied by the Court of Appeals of
Maryland.
OPINIONS BELOW
The opinion of the Maryland Court of Special
Appeals appears at Appendix A. The court’s opinion
is unreported. The Court of Appeals denied
certiorari; that order appears at Appendix B.1
JURISDICTION
The Maryland Court of Appeals issued its
denial of certiorari on October 23, 2020. The
jurisdiction of this Court is invoked under 28 U.S.C.
§1257(a).
INTRODUCTION
This petition presents a first-impression
question involving whether persons who are known
by their “common-law” name and have no residential
address are still persons with fundamental rights to
justice in the courts, guaranteed by the U.S.
Constitution, rather than outlaws.

^ttps^/www.courts. state, md.us/coappeals/petitions/202010
petitions; Pet. Docket 230.

1

RELEVANT CONSTITUTIONAL PROVISIONS,
AND COURT RULES
United States Constitution. Article IV. Sec. 2
The Citizens of each State shall be entitled to all
Privileges and Immunities of Citizens in the several
States.
United States Constitution. First Amendment
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
United States Constitution. Fourteenth
Amendment. Sec. 1
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Maryland Declaration of Rights. Art. 5. (a)
(1) That the Inhabitants of Maryland are entitled to
the Common Law of England, and the trial by Jury,
according to the course of that Law, and to the
benefit of such of the English statutes as existed on
the Fourth day of July, seventeen hundred and
seventy-six; and which, by experience, have been
found applicable to their local and other
circumstances, and have been introduced, used and
practiced by the Courts of Law or Equity;-... subject,

2

nevertheless, to the revision of, and amendment or
repeal by, the Legislature of this State. ...
Maryland Declaration of Rights. Art. 19
That every man, for any injury done to him in his
person or property, ought to have remedy by the
course of the Law of the Land, and ought to have
justice and right, freely without sale, fully without
any denial, and speedily without delay, according to
the Law of the Land.
Maryland Declaration of Rights. Art. 23
... The right of trial by Jury of all issues of fact in
civil proceedings in the several Courts of Law in this
State, where the amount in controversy exceeds the
sum of $15,000, shall be inviolably preserved.
Maryland Rule 2-201
Every action shall be prosecuted in the name of the
real party in interest.... No action shall be dismissed
on the ground that it is not prosecuted in the name of
the real party in interest until a reasonable time has
been allowed after objection for joinder or
substitution of the real party in interest.
Maryland Rule 1-311
(a) Requirement. ... Every pleading and paper of a
party who is not represented by an attorney shall be
signed by the party. Every pleading or paper filed
shall contain (1) the signer’s address, telephone
number, facsimile number, if any, and e-mail
address, if any ...

3

STATEMENT OF THE CASE
Jane Doe is the common law legal name of
Petitioner, and she is the real party in interest in
this matter. Doe is a homeless person with no fixed
residential address.
In June 2015, Jane Doe was arrested by a
deputy sheriff in Carroll County, Maryland for
alleged minor traffic violations. She was detained
pending trial for over two months because a Carroll
County district court judge set a condition for release
which required her to give evidence against herself2
and demanded an excessive bail of over $500,000 to
be paid in cash only.3 All charges were eventually
dropped and Doe was finally released.4
Since at least 2009, well before her arrest, and
during the period of her arrest and pre-trial
detention in 2015, and to this day, Doe identified
herself — and was known to all persons and parties
as — Jane Doe. Her mailing address as existed in
was
2015 — and as demonstrated by court records
and remains the same address which appears on this
petition.
Doe filed complaints in the circuit court of
Carroll County alleging common law torts and
violations of Maryland constitutional rights against
Respondents, who are all government contractors or
employees, pertaining to her false arrest and
2 Petitioner was ordered held in detention to compel her to give,
specifically, her social security number, her birth date, her birth
name, and her residential address to assist law enforcement to
fish for other evidence to be used against Doe: a violation of the
Fifth Amendment.
3 In violation of the Eighth Amendment.
4 But was actually still detained for four days beyond the
release ordered by the judge.

4

imprisonment in 2015. In her complaints, she set
forth her name and address as they appear in this
Petition.
Respondents filed motions to dismiss the
complaints, alleging that Doe was proceeding
“anonymously,” despite their own records5 showing
that all parties knew Petitioner as Jane Doe, her
common law name, and as no other name.
The circuit court ordered Doe to amend her
complaints to contain her name and full address or
be dismissed. Doe amended her complaint by setting
forth her name and address, and adding factual
allegations that her name and address as shown
were in fact true, that she was the real party in
interest, and that her true mark was attached as
signature. Doe further filed notices of compliance,
including as evidence: affidavits from multiple
persons who identify and know her as Jane Doe;
newspaper reports identifying her as Jane Doe, and
business
and
court records
submitted by
Respondents showing they know her as Jane Doe.
Doe further requested a jury hearing on the fact that
her common law name identifies her as the real
party in interest.6
The circuit court struck Doe’s amended
complaints without a hearing, stating merely that
Doe had not provided “her name and full address,”
and dismissed her complaints. In a final ruling on a
motion to vacate the order of dismissal, the circuit
court concluded without any evidence that Doe was
proceeding anonymously, and that Maryland Rule 25 Some of which were submitted to the circuit court. In addition,
the circuit court had the evidence of the record in the arrest
case.
6 Pursuant to the Maryland Declaration of Rights, Article 23.

5

2017 overrides the common law right to change one’s
name without resort to a court, and to sue or be sued
in one’s common law name.
On appeal, the Court of Special Appeals again
concluded, . without evidence, that Doe was
proceeding anonymously. That court also held that
Doe’s address was not ‘hers’ because it was listed as
‘in care of LWRN, and that the fact that Doe
admitted she has used her common law name for less
than ten years is sufficient for the circuit court to
conclude that Doe was “attempting” to proceed
anonymously against parties who have known who
she is for over five years.8
The Maryland Court of Appeals denied
certiorari on October 23, 2020.
REASONS FOR GRANTING THE WRIT
The Constitution of the United States, and the
Constitution of Maryland, were ratified by the people
in order to safeguard their rights, so that
government would protect and order those rights for
the people’s benefit.

7 Maryland Rule 2-201 “Every action shall be prosecuted in the
name of the real party in interest
8 On the strength of the same evidence submitted to the state
courts, Judge Chuang of the U.S. District Court for Maryland
reached the opposite conclusion: that Doe was not proceeding
anonymously in a § 1983 case against the same Respondents,
see Doe v. DeWees, et al, Case 8:18-cv-02014-TDC, Doc. 48, p 13.
Judge Chuang has adjudged that Jane Doe is Petitioner’s legal
name, sufficient to maintain her complaint, based on the same
allegations in her complaint and the same records as submitted
to the circuit court herein.

6

Article 19 of Maryland’s Declaration of Rights
guarantees every man remedy by the Law of the
Land for injury done to him in his person, and to
have justice and right fully without any denial. This
Article mirrors the provisions of the majority of State
constitutions, demonstrating that access to the courts
for remedy is considered a fundamental right across
this country.
Pertinent here, the right of instituting and
maintaining actions in state courts is a fundamental
right protected by the U.S. Constitution. Access to
the courts is grounded in Article TV’s privileges and
immunities clause, the First Amendment, and the
Fourteenth Amendment.
Petitioner was denied access to the courts for
remedy in a case where she alleges common law torts
and constitutional violations against government
officials in law enforcement, detention, and
prosecution. She was discriminated against because
she uses a common law name and has no fixed
residential address. Despite unrebutted evidence that
she sued in the only name that can identify her as
the real party in interest — in fact, the only name by
which all parties and the public know and can
identify her — and that her peers have known her by
her name for over nine years (twelve years now), the
lower courts ignored the facts, refused to
acknowledge that juries are the judges of all civil
case facts in Maryland, and wrongly decided Doe was
attempting to proceed anonymously and could
therefore be dismissed. Doe never requested to
proceed anonymously, however, nor contended that
she was attempting to do so.
If the people of Maryland can so easily be
dismissed from courts, on the threshold of their suit,

7

at the suggestion, sans evidence, that the common
law name known by all defendants to identify a
plaintiff does not in fact identify him or her as a real
party, then all homeless and undocumented persons,
including illegal aliens, transitioning, as well as
persons who have merely changed their name
pursuant to the common law, are at the same risk as
Petitioner of being barred from obtaining remedy in
the courts. This, in turn, will unfortunately
encourage an open season on the disadvantaged and
homeless, a situation in which the police will violate
and oppress their lives, liberty, and property without
fear of being held accountable by persons from whom
the court may arbitrarily demand some other name
than the one they use to identify themselves and
interact with others.
Further, there is always a class of people who
live without government documentation, or without a
home, including people who come to this country as
“illegal” immigrants. Are not those people, whether
on the street, in shelters, abandoned homes, or living
temporarily with relatives or friends, persons still
entitled to equal protection under the law, and access
to the courts for remedy of injuries? Should homeless
or
otherwise
common
people
with
law
“undocumented” names be excluded from the benefit
or protection of the law, made outlaws by requiring
them to identify themselves with some name
approved by government officials or judges or via
government ID? Should discrimination against
persons who have no home and lack residential
addresses be enshrined in case law, where no law or
court rule requires homes for access to the courts?
Maryland Rule 2-201, just as the rules of the federal
courts and other states, only requires the real party

8

in interest to sue in their own name. No other
qualification is given for the name, and common law
names are valid in Maryland. The Maryland courts’
repudiation of common law names is oppressive and
denies equal protection of access to the courts based
merely on the name by which a person is known.
This denial of substantive due process rights
should be rejected by this Court, to set a clear
standard reaffirming the fundamental right,
guaranteed by the federal Constitution, that all
persons, regardless of their names or their living
conditions, are entitled to petition the courts and be
heard. It is even more important that this right be
affirmed by the Supreme Court in the present
economic and social conditions across the country.
The U.S. Department of Housing and Urban
Development 2020 AHAR Report estimated 580,466
homeless in America in January 2020; this before the
COVID-19 crisis caused loss of jobs on a massive
scale, which is resulting in increased homelessness.
The loss of jobs presently being experienced will
greatly increase this population: an analysis by a
Columbia University economist predicted a 40-45%
increase in homeless people by the end of 2020.9 A
large proportion of the homeless, often up to 40%, are
unsheltered (on the street, in abandoned buildings,
or in places unsuited for habitation). Those people
(and even the “sheltered”) struggle to obtain mailing
addresses so that they can receive notifications from
government offices, including courts.
If a homeless person has established an
address at which they can receive notification and be
contacted, is it a violation of the equal protection of
9 https://community.solutions/analysis-on-unemploymentprojects-40-45-increase-in-homelessness-this-year/

9

the laws to dismiss them from court on the basis of
the fact that they did not provide a residential
address? Attorneys routinely use their business
address in suits representing others; those who
represent themselves — an increasing proportion of
the public — also often use their business addresses.
It is clear that to dismiss a case on the basis of a
court’s mere disapproval of the form or type of the
address, or the fact that the address given is not a
residential one, is blatant oppression. If this Court
does not act swiftly to clarify that such forms of
discrimination are violations of the Fourteenth
Amendment’s equal protection clause, the potential
exists for many disadvantaged people to be barred
from the courts because they lack a residential
address. In Petitioner’s case, the appeals court
decision was unreported, but this does not keep
courts from discriminating again. Indeed, if state
officials wish to quell a homeless person’s suit for
constitutional torts, all that needs to be done is to
dismiss the case on the basis of the address, and
leave the decision unreported. In this manner,
discrimination can happen multiple times on a
case
no
plaintiff-by-plaintiff
basis,
with
demonstrating such discrimination placed on the
books. Again, if this discriminatory ruling on grounds
not found in any state or federal rules is unchecked
by this Court, it will encourage courts to dismiss
plaintiffs over the form of plaintiffs’ address, even
where plaintiffs’ show they in fact receive mail at
those addresses.
Discrimination and abuse against persons
with common law names, without government ID,
and with respect to addresses somehow displeasing
to the court, will be repeated — albeit in a hidden,

10

“unreported” way — against an increasing number of
homeless, aliens, and disadvantaged persons should
this Court fail to set a clear standard of equal
protection.
Common law names are valid as party names
Md. Rule 2-201 provides that an action be
prosecuted in the name of the real party in interest.
This rule largely tracks Fed. R. Civ. P. 17(a), and
federal precedent is therefore helpful in determining
its procedural requirements. Southdown Liquors,
Inc. v. Hayes, 323 Md. 4, 6 (1991).
“This rule enshrines the principle that ‘the
action must be brought by the person who, according
to the governing substantive law, is entitled to
enforce the right.’ 6A Wright and Miller, FEDERAL
PRACTICE AND PROCEDURE § 1543.” Lozano v.
City of Hazelton, 496 F. Supp. 2d 477, 504 n.27 (M.D.
Pa 2007) (emphasis added).
The rule does not require a person to provide a
“real” name; it requires a person to be the “real”
party in interest. In other words, it concerns getting
rather than
the “real party”
the right person
getting the right name. A name may sufficiently
identify the right party, whether adopted under the
common law or otherwise.
Further, all persons in Maryland are entitled
to the Common Law of England as set forth in the
Declaration of Rights, at Art. 5(a). Petitioner brought
her action for common law torts using her common
law name. She, and all persons similarly situated,
are entitled to do both.
“Maryland recognizes common law name
changes,” and “[n]either the statutory or common law

11

method is ... the exclusive manner in which a name
may be changed/’ Torbitt v. State, 650 A.2d 311, 314
(Md. Ct. Spec. App. 1994) (citing Stuart v. Bd. of
Supervisors of Elections, 295 A.2d 223 (Md. 1972).
“[A]bsent a statute to the contrary,” there is a
common law right of any person “to adopt any name
by which [a person] may become known, and by
which [such person] may transact business and
execute contracts and sue or be sued.” Stuart v. Bd.
of Supervisors of Elections, at 226. “If there is no
statute to the contrary, a person may adopt any
name by which he may become known, and by which
he may transact business and execute contracts and
sue or be sued. And this without regard to his true
name.” Romans v. State, 16.A.2d 642 (1940) (internal
citations omitted, emphasis added). See also
Schofield r Jennings, 68 Ind. 232, 235 (1879) (“A
person may be known by any name in which he may
contract, and in such name he may sue and be sued,
and by such name may be criminally punished; and
when a person is known by several names—by one as
well as another—he may contract in either, and sue
and be sued by the one in which he contracts, and
may be punished criminally by either.”)
Common law in England and the United
States has always permitted common law names. An
individual may choose any name he wishes—
provided the reasons for choosing another name are
not to defraud another.
A man may lawfully change his name
without resort to legal proceedings, and
for all purposes the name thus assumed
will constitute his legal name just as
much as if he had borne it from birth.

12

29 Cyclopedia of Law and Procedure
261, 271 (William Mack ed., 1908).
In all States of the union, this common law
right is recognized; in only four states has this right
to control one’s own legal name been explicitly
abrogated by statute.10 While all states have enacted
name change statutes, those statutes have not been
held to abrogate the common law right to control
one’s own name without utilizing the statutory
provisions. See, e.g., Leone v. Comm’r, Ind. Bureau of
Motor Vehicles, 933 N.E. 2d 1244, 1253 (Ind. 2010)
(“All states have enacted similar statutes [providing
a name change procedure], and all but two have
concluded that they do not abrogate but instead
supplement the common law.”)
In California, for example, a common law
change of name, that is, “the adoption and use of a
name different from the one by which a person was
formerly known, without resort to judicial process or
other intervention by the state,” is valid. (Report of
Attorney General, No. 00-205, June 9, 2000).11 “At
common law, all persons had, and in most common
law jurisdictions ... continue to have a right to
change their given names and surnames at will. ...
[A] person [has a right] to use whatever name he or
she chooses, as long as the purpose is not ‘to defraud
or intentionally confuse.’” Id. (omitting internal
citation).
Where the court rule supplies that the “real
party in interest” be named in the suit, such rule
10 Hawaii, Oklahoma, Alabama, and Louisiana (the last has
never been a common law State). See Julia Shear Kushner, The
Right to Control One’s Name, 57 UCLA L.R.EV.313, 328 (2009).
11 See https://oag.ca.gov/system/files/opinions/pdfs/00-205.pdf

13

must be congruent with the common law right to the
name of one’s choosing, and to the name he or she is
known by. By ruling that Doe may only file suit
under some (unknown) name other than her own
name, the Maryland courts abrogated her
entitlement to a common law name as practiced by
the courts of law or equity, in violation of the
Maryland’s Declaration of Rights, Article 5, which
secures that right (except when the Legislature
explicitly repeals those aspects of common law, which
it has not). In doing so, the Maryland courts also
ruled against their own established precedents (See,
e.g., Romans v. State, supra).
Barring a person from access to the courts on
the frivolous ground that she has been known by her
name only for nine years operates as a denial of
equal protection of the laws in violation of the
Fourteenth Amendment, and is so arbitrary and
oppressive that it violates the Due Process clauses as
well.
Dismissal on form of address violates
equal protection
The Court of Special Appeals opined that Doe
did not supply “her” address because inclusion of the
phrase “c/o LWRN” means that the address is not
“hers.” This ground of dismissal of Doe’s suit is
frivolous; no authority of any kind was cited — nor
can any be found — to support this ruling. As long as
court papers are delivered to a real address at which
the party in fact receives his papers, the provision of
Md. Rule 1-311 that the “signer’s address” be
included in the initial filings is met.
How can a person be barred from court by

14

using the only address he can obtain and at which he
can receive documents? If Md. Rule 1-311, and other
similar rules in other States can be interpreted to
require addresses which do not use the phrase “care
of,” homeless and alien plaintiffs who do not have
fixed residential addresses, but must use any address
they can acquire — whether in care of a business,
organization, homeless shelter, church, relative or
friend — will be, as Jane Doe is here, cut off from the
Courts. This ruling is arbitrary and oppressive, not
just to Doe, but to all persons similarly
disadvantaged. If such judicial interpretation will not
be applied to others, because the opinion is
unreported, then Doe has been singled out and
treated unequally under the law. Doe cannot
conceive of any interest of the courts or parties which
would justify the exclusion of particular forms of
otherwise valid mailing addresses over other forms.
Barring a person from access to the courts on
the frivolous ground that the form of her valid
mailing address is offensive is a denial of equal
protection of the laws in violation of the Fourteenth
Amendment, and is so arbitrary and oppressive that
it violates the Due Process clauses as well.
The Constitution secures a fundamental
right to access the courts
The denial of Petitioner’s common law right to
use her own name and address bars Petitioner from
access to the Maryland courts, not only in this case,
but in any case in the future, under the doctrine of
collateral estoppel. Accordingly, Doe is being further
denied, now and forever, the exercise of her right
under Maryland’s Declaration of Rights, Article 19,

15

to have remedy by the Law of the Land — which
includes both common law torts and common law
names. In short, the courts decision has made her an
outlaw.
Access to the courts is a right guaranteed by
the U.S. Constitution. As early as 1823, a federal
circuit court discussed whether a state statute
infringed Article IV, Section 2 of the U.S.
Constitution, which declares that “the citizens of
each state shall be entitled to all the privileges and
immunities of citizens in the several states.” Justice
Washington, in answering this question, stated that
these privileges and immunities “are in their nature,
fundamental, which belong, of right, to the citizens of
all free governments.” Corfield v. Coryell, 6 F.Cas.
546, 551 (E.D. Pa 1823). These rights included “the
right ... to institute and maintain actions of any kind
in the courts of the state.” Id., at 552.
In Chambers v. Baltimore & Ohio R. Co., 207
U.S . 142, 148 (1907), this Court reiterated this right
to sue in the courts:
some
fundamental
[T]here
are
principles which are of controlling
effect. The right to sue and defend in the
courts is the alternative of force. In an
organized society it is the right
conservative of all other rights, and lies
at the foundation of orderly government.
It is one of the highest and most
essential privileges of citizenship, and
must be allowed by each State to the
citizens of all other States to the precise
extent that it is allowed to its own
citizens. Equality of treatment in this

16

respect is not left to depend upon comity
between the States, but is granted and
protected by the Federal Constitution,
(internal citations omitted, emphasis
added).
The U.S. Constitution would not be the
supreme Law of the Land “if any right given by it
could be overridden either by state enactment or by
judicial decision.” Id., at 159. The right to court
access has been grounded also in the First
Amendment, Bill Johnson's Restaurants, Inc. v.
NLRB, 461 U.S. 731, 741 (1983); California Motor
Transport Co. v. Trucking Unlimited, 404 U.S. 508,
513 (1972), the Fourteenth Amendment Equal
Protection Clause, Pennsylvania v. Finley, 481 U.S.
551, 557 (1987), and Due Process Clauses, Wolff v.
McDonnell, 418 U.S. 539, 576 (1974); Boddie v.
Connecticut, 401 U.S. 371, 380-381 (1971).
Barring Doe from using her name violates the
First Amendment protection to free speech
In effect, the state courts here told Petitioner
that she may not call herself Jane Doe, and that she
will be barred from the courts unless she calls herself
by some other name (but all this without indicating
what name Doe is ordered to call herself to have her
suit accepted for filing).12 This is especially
12 The courts below dismissed the case “without prejudice,” but
since the statutory limitation for filing a state suit had been
reached, this was a de facto dismissal “with prejudice.”
Moreover, any other name Doe chose, or any other address she
acquired, for the purpose of a law suit, could as easily have been
dismissed by the court for failure to state the name of the real

17

oppressive where all parties only know Petitioner by
her name, Jane Doe. If Doe used any other name,
Respondents could then assert that they knew no
such party, and that the case had not been brought
in the name of the “real party in interest.”
The right to control what one calls oneself is a
quintessential, free speech (expression) issue. A
person’s identity as it comes about in a free society is
not based on what other persons call him, it is based
on what he himself acknowledges as his identity; it is
the name one calls oneself and responds to when
called out by others that becomes recognized by those
others as one’s name.
The right to name oneself is guaranteed by the
First Amendment. We can see this right in action in
many
transitioning
transgenders,
who
call
themselves not only by the name they choose for
themselves, but refer to themselves even with
different pronouns. If the courts can merely
discriminate against such free speech, then the
courts may distinguish between litigants whose
names they personally approve, and those they don’t.
This converts the freedom of naming oneself into an
exercise in obtaining a court-approved name.
The courts below erred in denying Petitioner
access to the courts
The Maryland courts committed several plain
errors to reach the conclusion that Jane Doe could
not use her common law name. First, the courts
failed to deem the allegations in Doe’s complaints, as
amended, to be true, as is required on a motion to
dismiss. Second, the courts failed to consider the
party in interest, or failure to give a proper address.

18

facts set forth in her notices of compliance in the
light most favorable to her (analogous to a decision
on summary judgment, since evidence outside of the
motion to dismiss was considered, and no trial of the
facts was held). Finally, both courts decided the
critical issue of fact — is Jane Doe the name of the
real party in interest — while denying Doe her
constitutional right to have all facts adjudicated by a
jury, as is guaranteed by Maryland’s Declaration of
Rights, Articles 20 and 23. Finally, the courts
decided the fact at issue contrary to all evidence
before them. These errors, taken together,
demonstrate a complete lack of conformity with the
Due Process rights of Petitioner.
CONCLUSION
The petition for writ of certiorari should be
granted.
Respectfully submitted,
Jane Doe
c/o LWRN
5 South Center Street, #1100
Westminster, MD 21157
lwrn@mail.com
410.857.5444
Petitioner pro se

19

